                                                           IG-00-044




AUDIT
                           TRANSFER OF EXTERNAL TANK DISPLAY TO
REPORT                            KENNEDY SPACE CENTER
                                     VISITOR COMPLEX

                                      September 14, 2000




                                OFFICE OF INSPECTOR

National Aeronautics and
                                       GENERAL
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing
at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800) 424-9183,
(800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the
NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026.
The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.



Acronyms

FY              Fiscal Year
NHB             NASA Handbook
NPD             NASA Policy Directive
NPG             NASA Procedures and Guidelines
OIG             Office of Inspector General
W                                                                                    September 14, 2000


TO:            A/Administrator

FROM:         W/Inspector General

SUBJECT: INFORMATION: Transfer of External Tank Display to Kennedy Space Center
         Visitor Complex
         Report Number IG-00-044


The NASA Office of Inspector General has completed an audit of the Stennis Space Center
(Stennis) transfer of a Space Shuttle external tank display (external tank) to the Kennedy Space
Center (Kennedy) Visitor Complex. We found that the Stennis Public Affairs Office used
nonappropriated funds to effect an unauthorized augmentation of NASA's budget. This
condition occurred because senior Kennedy and Stennis officials did not follow Agency policy
in entering into a bilateral agreement to transfer a mock-up1 external tank to Kennedy's Visitor
Complex. In exchange for transferring the external tank, the Kennedy Visitor Complex
Concessioner, Delaware North Parks Services of Spaceport, Inc. (Delaware North), paid
$500,000 in nonappropriated funds to the Stennis Exchange,2 which deposited the amount in an
interest-bearing account for use by the Stennis Public Affairs Office. That office subsequently
used the $500,000 to construct an addition to the Stennis Visitor Center and to acquire new
exhibits. Stennis should have paid for those activities with appropriated funds, because no
statutory authority provides for the acceptance and use of the nonappropriated funds from
Delaware North.

Background

The external tank is one of three major elements3 of the Space Shuttle's main propulsion system
and serves as the Shuttle's structural backbone. The external tank holds more than a half million
gallons of liquid oxygen and liquid hydrogen that fuel the Shuttle's main

1
  A mock-up is a scale model, usually a full-sized replica, of a structure or apparatus used for instructional or
experimental purposes. The transferred external tank is a full-sized replica.
2
  The Stennis Exchange is a nonappropriated fund instrumentality whose mission is to operate activities
contributing to the efficiency, welfare, and morale of NASA personnel. NASA Policy Directive (NPD)
9050.6E, “NASA Exchange Activities,” December 2, 1997, states that the purpose of the NASA Exchange is
to operate activities contributing to the efficiency, welfare, and morale of NASA personnel.
3
  The three major elements that comprise the Space Shuttle's main propulsion system are (1) two solid rocket
boosters, (2) three main engines, and (3) the external tank.
                                                                                                     2

engines during liftoff. NASA purchased the subject external tank in 1977 for $500,000.4
The tank was initially located at the Marshall Space Flight Center (Marshall). Marshall
transferred the external tank to Stennis in April 1990.

On February 27, 1997, the Directors of Kennedy and Stennis Space Centers entered into a
bilateral agreement (see Appendix B) whereby Stennis agreed to transfer an external tank
mock-up display, located at the Stennis Visitor Center, to the Kennedy Visitor Complex for use
as a major exhibit. In return for the external tank, Kennedy directed its Visitor Complex
Concessioner, Delaware North, to pay $500,0005 to the Stennis Exchange. The bilateral
agreement stated that the payment was to compensate Stennis for the potential loss of future
revenue to the Stennis Visitor Program due to the external tank transfer. Stennis officials
subsequently stated that because appropriated funds were not available for a proposed
expansion of the Stennis Visitor Center, the funds received for the external tank transfer would
be used for construction.

Recommendations

We recommended that the Director, John C. Stennis Space Center direct the Stennis Chief
Financial Officer to reimburse the Stennis Exchange from appropriated funds, an amount equal
to all nonappropriated funds obligated by the Stennis Exchange that were used to augment
NASA's appropriation by constructing the addition to the Stennis Visitor Center and to acquire
new exhibits. Also, upon receipt of the appropriated funds reimbursement, the Stennis
Exchange Council should refund the $500,000 payment received for the external tank transfer
and the accumulated interest to Delaware North. Further, the Director, John F. Kennedy
Space Center, should direct the NASA Contracting Officer for Kennedy's concession
agreement to direct Delaware North to redeposit the $500,000 and accumulated interest
received from the Stennis Exchange to the exhibits fund.

Management's Response

Management nonconcurred with the conclusions and recommendations in the report (see
Appendix C). Management stated that we used a narrow interpretation of the broad authority
given to the Agency in the Space Act and disputes the underlying premise of the report.
Management stated that the transfer of the external tank to Kennedy and the payment of
nonappropriated funds to the Stennis Exchange were two separate transactions.

We reaffirm our position with respect to both the finding and recommendations and have
requested management to reconsider its position and provide additional comments. We
                                                                                                     3
4
  The NASA Equipment Management System shows the cost of the external tank (Equipment Control
Number 1013861) as $500,000.
5
  Prior to the February 27, 1997, agreement, Delaware North had budgeted funds to contract for the
fabrication of a new external tank mock-up to display at the Kennedy Visitor Complex.
do not agree with management's position and believe it is based on an overly broad and liberal
interpretation of not only the Space Act, but also of Kennedy's concession agreement with
Delaware North. The documentation supporting this transaction clearly shows that the payment
of $500,000 to the Stennis Exchange was dependent on delivery of the external tank to
Kennedy and was, in substance, a single transaction rather than two separate and unrelated
events.

We provide a detailed response to management's comments in Appendix D of the report.


[original signed by]
Roberta L. Gross

Enclosure
 Final Report on Audit of Transfer of External Tank Display to Kennedy Space Center
 Visitor Complex
                FINAL REPORT
AUDIT OF TRANSFER OF EXTERNAL TANK DISPLAY TO
   KENNEDY SPACE CENTER VISITOR COMPLEX
W                                                                        September 14, 2000


TO:            AA/Director, John C. Stennis Space Center
               AA/Director, John F. Kennedy Space Center
               B/Chief Financial Officer
               J/Associate Administrator for Management Systems

FROM:          W/Assistant Inspector General for Auditing

SUBJECT:       Final Report on Audit of Transfer of External Tank Display to Kennedy Space
               Center Visitor Complex
               Assignment Number A0000200
               Report Number IG-00-044


The subject final report is provided for your use and comments. Our evaluation of your response
is incorporated into the body of the report and into Appendix D. With respect to management's
nonconcurrence with the recommendations, we request that management reconsider its position
and submit additional comments by November 13, 2000. The recommendations will remain
open for reporting purposes.

If you have questions concerning the report, please contact Mr. Kevin J. Carson, Program
Director, Safety and Technology Audits, at (301) 286-0498, or Mr. Oscar Lindley, Auditor-in-
Charge, at (228) 688-1493. We appreciate the courtesies extended to the audit staff. The final
report distribution is in Appendix E.


[original signed by]
Russell A. Rau

Enclosure
                                                     2

cc:
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Acting Director, Management Assessment Division
M/Associate Administrator for Space Flight
P/Associate Administrator for Public Affairs
                           NASA Office of Inspector General

IG-00-044                                                                              September 14, 2000
 A0000200

       Transfer of External Tank Display to Kennedy Space Center
                             Visitor Complex

Introduction

The NASA Office of Inspector General (OIG) has completed an audit of the Stennis transfer of
a Space Shuttle external tank display (external tank) to the Kennedy Visitor Complex. The
overall objective of the audit was to evaluate the propriety and use of $500,000 paid by the
Kennedy Visitor Complex Concessioner to the NASA Exchange at Stennis in relation to the
transfer of the external tank. The specific objective was to determine whether the payments
were appropriate and reasonable and were for authorized purposes.

The Stennis Exchange is a nonappropriated fund instrumentality whose mission is to operate
activities contributing to the efficiency, welfare, and morale of NASA personnel.

Appendix A contains further details on the audit objectives, scope, and methodology.

Results in Brief

Senior Management Officials at Kennedy and Stennis did not follow established policies for
transferring property between NASA Centers without reimbursement of property cost.
Consequently, the Kennedy Visitor Complex Concessioner made an unauthorized payment of
$500,000 in nonappropriated funds to the Stennis Exchange. The Stennis Public Affairs Office
used the $500,000 to fund a construction project and additional public exhibits at the Stennis
Visitor Center, which resulted in an unauthorized augmentation of NASA's appropriation.

Background

The National Aeronautics and Space Act of 1958 (Space Act), as amended, allows NASA to
use nonappropriated funds of concessioners to fund construction, maintenance, and operation of
all manner of facilities and equipment for visitors and to provide services incidental to the
dissemination of information concerning the Agency's activities. The Stennis Visitor Center is
not operated under a concession agreement. The Stennis Public Affairs Office manages the
Stennis Visitor Center with support personnel provided by the Center's facilities operations
contractor. The Stennis Exchange is not a concessioner, but rather an instrumentality of the
Federal Government under NASA's control. 6

6
 NPD 9050.6E, "NASA Exchange Activities," December 2, 1997, identifies NASA Exchanges as
instrumentalities of the United States that must be under NASA's control, and ownership interests must be
with the Government.
The Delaware North concession agreement with Kennedy states that the Government will
provide on a no-charge basis, various exhibits, displays, and artifacts7 for public viewing at the
Kennedy Visitor Complex. The external tank transferred from Stennis is classified as an artifact
and is permanently displayed in the Space Shuttle Exhibit at the Kennedy Visitor Complex.
Stennis and Delaware North completed the transfer of the external tank with Delaware North
reporting the tank as "Contractor Acquired Property" with a value of $500,000 on NASA
Form 1018, "NASA Property in the Custody of Contractors." Delaware North also paid
shipping costs of approximately $112,000 to transport the external tank from Stennis to the
Kennedy Visitor Complex.

Transfer of Space Shuttle External Tank

Finding. The Stennis Public Affairs Office used nonappropriated funds to effect an unauthorized
augmentation of NASA's budget. This condition occurred because senior Kennedy and Stennis
officials did not follow Agency policy in entering into a bilateral agreement to transfer a mock-up
external tank to Kennedy's Visitor Complex. In exchange for transferring the external tank, the
Kennedy Visitor Complex Concessioner, Delaware North, paid $500,000 in nonappropriated
funds to the Stennis Exchange, which deposited the amount in an interest-bearing account for
use by the Stennis Public Affairs Office. That office subsequently used the $500,000 to
construct an addition to the Stennis Visitor Center and to acquire new exhibits. Stennis should
have paid for those activities with appropriated funds, because no statutory authority provides
for the acceptance and use of the nonappropriated funds from Delaware North.

NASA Requirements Governing Transfers of Property

NASA Handbook (NHB) 4200.1D, "Equipment Management Manual," April 1, 1992,
establishes requirements and procedures for NASA and its contractors to screen the NASA
Equipment Management System prior to purchasing new equipment. Screening the system is
done to determine whether the desired item or an acceptable substitute is available. The system
identifies available items as having status codes of B, C, or D. Status code B items include
"inactive equipment approved for retention as a national asset," which would include the external
tank transferred to Kennedy since it is classified as an artifact. Once an item is identified as
being available for transfer and the requester




7
 An artifact is a unique object that documents the history of the science and technology of aeronautics and
astronautics. Its significance and interest stem mainly from its relation to: (1) historic flights, programs,
activities, or incidents; (2) achievements or improvements in technology; (3) our understanding of the
universe; and 4) important or well-known personalities.

                                                      2
has agreed to accept the transfer, the transfer is effected using an unfunded purchase request.
Using an unfunded purchase request to transfer property, in effect, means that the transfer is to
be made without reimbursement.

NHB 4300.1, "NASA Personal Property Disposal Manual," March 27, 1987, states that
NASA installations will use excess and surplus property to the maximum extent feasible to fill
existing needs and satisfy requirements prior to initiating new acquisitions. The NHB further
requires that a NASA Center requesting excess property from another Center pay only for
shipping expenses, except when the requested item is installed. For installed items, the
requesting Center is also required to bear the costs of dismantling and removing the item.

Federal Appropriations Guidance

Section 4-5 of General Accounting Office, "Principles of Federal Appropriations Law," states
that "an agency cannot do indirectly what it is not permitted to do directly." Additionally, Section
6-103 states:

                As a general proposition, an agency may not augment its appropriation
                from outside sources without specific statutory authority. The
                prohibition against augmentation is a corollary of the separation of
                powers doctrine. When Congress makes an appropriation, it is also
                establishing an authorized program level. In other words, it is telling the
                Agency that it cannot operate beyond the level that it can finance under
                its appropriation. To permit an Agency to operate beyond this level
                with funds derived from some other source without specific
                congressional sanction would amount to a usurpation of the
                congressional prerogative. Restated, the objective of the rule against
                augmentation of appropriations is to prevent a Government agency from
                undercutting the congressional power of the purse by circuitously
                exceeding the amount Congress has appropriated for that activity.


External Tank Transfer to Kennedy in Exchange for Reimbursement

As part of the transfer agreement signed by the Kennedy and Stennis Center Directors, Stennis
agreed to release any and all interest in the external tank if Kennedy:

•   Will direct its concessioner (Delaware North), through its Visitor Complex, to pay the
    Stennis Exchange $500,000 to compensate Stennis for the potential loss of future revenue
    to the Stennis Visitor Program due to the external tank transfer. A payment of $250,000
    will be made when the external tank is delivered at Kennedy, with the remaining $250,000
    paid before April 30, 1998.

•   Will allow Stennis to review the list of artifacts and/or mock-ups not used by the Kennedy
    Visitor Program for possible use at the Stennis Visitor Center.

•   Will provide advice, through its Visitor Complex, to Stennis in terms of design concepts for
    Stennis Visitor Center enhancements and/or construction.

                                                    3
•   Agreed that Stennis will receive priority in obtaining another external tank for display in the
    event another one becomes available for Visitor Center programs.

Stennis shipped the external tank to Kennedy in December 1996. In April 1997, Delaware
North made the first payment of $250,000 to the Stennis Exchange and made the second
payment in May 1998.

Payments to the Stennis Exchange for External Tank

Stennis transferred the external tank, an item of NASA equipment, to Kennedy in exchange for
reimbursement. NHB's 4200.1D and 4300.1 state that transfers of equipment or personal
property between NASA Centers are nonreimbursable, with the exception of shipping charges
paid by the requesting Center. The $500,000 paid to the
Stennis Exchange was derived from the Delaware North Exhibits Fund,8 held in trust by
Delaware North for improvements to the Visitor Complex as part of the concession agreement
with Kennedy. The Delaware North Exhibits Fund was established to provide for the
replacement, renovation, upgrade, and general improvement of existing Kennedy Visitor
Complex exhibits, displays, and major audio-visual equipment. The fund is not intended for
making payments for the "potential loss of future revenue" or for funding projects at other
NASA Centers.

At the time the agreement to transfer the tank was signed, Delaware North had budgeted to use
a portion of the Exhibits Fund to contract for the fabrication of a new external tank mock-up to
display at the Kennedy Visitor Complex. Evidence that the $500,000 payment was for
acquiring the external tank and was not related to a potential loss of future revenue is provided
in Kennedy's direction to Delaware North. In a letter dated April 21, 1997, the NASA
Contracting Officer directs Delaware North to make the first $250,000 payment to the Stennis
Exchange. The letter states that the payment is "for the external tank for the Shuttle Orbiter
Exhibit." In a May 12, 1998, memorandum to Delaware North, the Kennedy Director of
Procurement states that "Delaware North purchased the external tank from Stennis."
The transaction between Delaware North and Stennis appears to be payment from Delaware
North to a nonappropriated fund activity that would not require enabling statutory authority.
However, the substance of the transaction is a payment from Delaware North to construct an

8
 Delaware North's Concession Agreement with the Kennedy Space Center provides for the establishment of
three funds to be held in trust for Kennedy Visitor Complex improvements. The three funds and their
authorized uses are as follows:
         Exhibits Fund - A trust account to provide, as directed by the Contracting Officer, for the
         replacement, renovation, upgrade, and general improvement of existing Kennedy Visitor Complex
         exhibits, displays, and major audio-visual equipment.
         Facilities Fund - A trust account to provide, as directed by the Contracting Officer, for the
         replacement, renovation, upgrade, and general improvement of existing Kennedy Visitor Complex
         facilities, collateral equipment, and support infrastructure.
         Transportation Fund - A trust account to provide, as directed by the Contracting Officer, for the
         replacement, upgrade, and general improvement of existing Kennedy Visitor Complex vehicles and
         transportation systems, and expansion of the base fleet.

                                                    4
addition to the Stennis Visitor Center, which is an activity requiring the use of funds
appropriated by Congress for this purpose. Correcting this transaction to ensure compliance
with applicable appropriations guidance can result in an Anti-Deficiency Act9 Violation. Such a
violation would occur to the extent that insufficient appropriated funds of the correct type and
fiscal year (FY) are available to obligate and disburse for construction of the Visitor Center
addition and for the acquisition of new exhibits.

The external tank transfer was clearly conditional upon the payment of funds from Delaware
North to the Stennis Exchange. Stennis officials involved in the transfer told us that the external
tank was the focal point of the outdoor exhibits at the Stennis Visitor Center and that the Center
would not have agreed to its transfer without compensation for its loss. Stennis officials also
stated that at the time of the transfer, appropriated funds were not available for a planned
expansion of the Stennis Visitor Center. This resulted in the bilateral agreement between the
Directors of Kennedy and Stennis to transfer the tank to Kennedy in return for the funds
necessary to construct an addition to the Visitor Center.

Stennis properly prepared the documentation required by NHB 4200.1D and NHB 4300.1 for
initiating a nonreimbursable transfer of the external tank to Kennedy. However, Stennis actually
effected a reimbursable transfer by requiring Kennedy to provide compensation of $500,000,
which was NASA’s original cost of the tank. Identifying the $500,000 payment as
compensation for potential loss of future revenue to the Stennis Visitor Program, as cited in the
transfer agreement between Kennedy and Stennis, does not make this transaction a
nonreimbursable transfer.

Basis for Potential Loss of Revenue

Stennis could provide no evidence for its position that the $500,000 payment was to
compensate for the potential loss of future revenue to the Stennis Visitor Program. Rather, the
amount paid for lost revenue ($500,000) was identical to the cost of the external tank reported
in NASA's Equipment Management System. Stennis receives no revenue from the public in
operating its Visitor Center. The general public is allowed to view all exhibits and participate in
activities without charge. Stennis management officials stated that the "potential loss of future
revenue" really meant an anticipated loss of revenue to the Stennis Exchange. The Stennis
Exchange operates a souvenir shop in the Visitor Center, and it was anticipated that the shop
would have reduced revenues as a result of transferring the external tank, one of the Visitor
Center's focal point exhibits. Stennis management officials told us that a significant decrease in
the number of visitors was projected because of the absence of the external tank. However,
Stennis could provide no support for the projected decrease. Our analysis of visitor statistics
and souvenir shop sales data showed that the projected decrease did not occur. In fact, there
was an increase in the number of visitors and a corresponding increase in revenues of the
Exchange’s souvenir shop as shown in the following table.

9
 The Anti-Deficiency Act (31 United States Code 1341, 1342, and 1517) provides that Federal employees
shall not authorize an obligation under any appropriation in excess of the amount available or for any
purpose in advance of authorization by law.

                                                    5
                                  Stennis Visitor Center
                        Number of Visitors/Souvenir Shop Gross Sales

                     FY                            Number of Visitors        Gross Sales
1990 (Stennis receives external tank)                 116,646                 $182,500
1991                                                  114,202                 $149,200
1992                                                  113,726                 $171,100
1993                                                  111,931                 $154,600
1994                                                  103,031                 $163,000
1995                                                  102,982                 $183,700
1996 (external tank transferred to Kennedy)            91,1851                $179,100
1997                                                  109,6282                $212,200
1998                                                  111,765                 $187,900
1999                                                  112,454                 $189,800
1
  The Visitor Center auditorium was closed for a 4-month period for refurbishment. Bookings of school
groups were suspended during that time.
2
  The increase was attributed to new exhibits, special events, increased tourism, and heightened media
awareness of the Stennis Visitor Center through use of a Web site.



During FY's 1990 through 1996, the Stennis Visitor Center had an average annual attendance
of 107,672. From FY's 1997 through 1999, or after the external tank was transferred, average
attendance at the Stennis Visitor Center increased to 111,282. During this same period,
average annual gross sales at the Exchange's souvenir shop rose from $169,029 to $196,633.

Even if a programmatic decision had been made to transfer the external tank in furtherance of a
NASA program or mission, the Exchange would not be due any form of compensation for the
financial impact. NASA has authority to transfer exhibits, without consideration of Exchange
activities, to locations that best promote NASA’s programs and mission. 10 As previously
stated, however, the transfer of the external tank does not change the substance of the
transaction that resulted in Delaware North funds being used for purposes that require the use of
appropriated funds.




10
  NHB 4200.1D, "NASA Equipment Management Manual," states Government equipment is not owned by
the holder, and action will be taken, when it makes economic and programmatic sense, to move such
equipment from one use and user to another, including movement among offices, functions, programs,
contractors, and installations.

                                                     6
Addition to Visitor Center Constructed With Funds Received From Delaware North

The Stennis Exchange deposited the $500,000 payment from Delaware North into an interest-
bearing account with the Hancock Bank for the exclusive use of the Stennis Public Affairs
Office for making Visitor Center improvements. In June 1998, the Stennis Exchange awarded a
firm-fixed-price contract for $432,031 to D.N.P., Inc., to construct a 7,000 square foot
expansion to the Stennis Visitor Center, a facility that was originally constructed with
appropriated funds. The Stennis Exchange paid for this contract with funds from the Stennis
Exchange's account with Hancock Bank. At the direction of the Stennis Public Affairs Office,
the Stennis Exchange is also using funds, including accrued interest from the same account, to
acquire exhibits to be displayed in the expanded Visitor Center.

Although the Space Act allows NASA to use nonappropriated funds of concessioners for
construction and other activities, the Stennis Exchange is not a concessioner, but an
instrumentality of the Federal Government under NASA's control. Therefore, the Stennis
Exchange lacks the authority given concessioners to use nonappropriated funds for constructing
a Visitor Center expansion. Further, NASA Visitor Center exhibits and displays promoting the
mission and programs of NASA are also normally acquired with appropriated funds provided
for public affairs activities.11 It is the responsibility of NASA, not the Stennis Exchange, to
promote the Agency's programs and projects. By constructing the addition and acquiring
exhibits, the Stennis Exchange is involved in activities outside its authorized purpose. The
resulting facility construction and acquisition of exhibits occurred outside specific appropriation
authority and without congressional approval.

Unauthorized Augmentation of NASA's Budget

The Stennis Public Affairs Office use of nonappropriated funds to construct the Visitor Center
addition and to acquire new exhibits constitutes an unauthorized augmentation of NASA's
budget. The General Accounting Office Principles of Federal Appropriations Law states that an
agency cannot do indirectly what it is not authorized to do directly with appropriated funds and
that an agency may not augment its appropriation from outside sources without specific statutory
authority.

The Comptroller General of the United States referenced the prohibition against an agency
augmenting its appropriation in an opinion concerning an agency's use of interest earned on
appropriated funds. In an opinion dated February 24, 2000, to the Trustee, Court Services and
Offender Supervision Agency for the District of Columbia, the Comptroller General stated:

                 When an agency retains and spends funds received from outside
                 sources, it augments its appropriation to the extent that such amounts
                 result in agency spending in excess of the level established by the
                 appropriation act. An agency's authority to augment its appropriation


11
  NASA Management Instruction 1387.1D, “NASA Exhibits Program,” December 19, 1990, states that
funding for the design, construction, and procurement of exhibits, exhibit materials, and exhibit
refurbishment will normally be borne by the proponent installation.

                                                   7
                is no greater than its authority to spend funds in the absence of an
                appropriation. Further, even when a law authorizes an officer or
                employee to receive funds from outside sources, the authority to spend
                the funds must be provided in law. The authority to spend may not be
                inferred from the absence of an express prohibition to spend in the law
                authorizing the collection.


Regarding the use of nonappropriated funds for construction and the acquisition of new exhibits,
Stennis did not have specific statutory authority to either receive the funds from Delaware North
or to use the funds for these purposes.

Conclusion

In our opinion, Stennis and Kennedy management pursued "creative financing" to further the
NASA mission. However, management lacked the statutory authority to do so. Accordingly,
management should ensure that (1) only appropriated funds are used for the facility construction
project and purchase of exhibits; (2) the $500,000 and accrued interest is repaid to Delaware
North; and (3) Delaware North redeposits the funds in the exhibits fund. In addition, Stennis
should ensure that sufficient appropriated funds of the correct appropriation and fiscal year are
available to fund construction activities.

Recommendations, Management's Response, and Evaluation of
Response

The Director, John C. Stennis Space Center, should:

   1. Direct the Stennis Chief Financial Officer to take appropriate actions to
   reimburse the Stennis Exchange from appropriated funds, an amount equal to all
   nonappropriated funds obligated by the Stennis Exchange that were used to
   augment NASA's appropriation by constructing the building addition to the Stennis
   Visitor Center and to acquire new exhibits. The appropriated funds should be from
   the fiscal year in which the obligations were incurred.

   2. Upon receipt of the appropriated funds reimbursement, direct the Stennis
   Exchange Council to refund the $500,000 payment received for the external tank
   transfer and the accumulated interest to Delaware North.

3. The Director, John F. Kennedy Space Center, should direct the NASA Contracting
Officer for Kennedy's concession agreement with Delaware North to direct Delaware
North to redeposit the $500,000 and accumulated interest received from the Stennis
Exchange to the exhibits fund.

Management's Response. Nonconcur. Management stated that the OIG used a narrow
interpretation of the broad authority given to the Agency in the Space Act and that management
disputes the underlying premise of the report. Management stated that the transfer of the

                                                  8
external tank to Kennedy and the payment of nonappropriated funds to the Stennis Exchange
were two separate transactions that need to be examined. On the one hand, one NASA Center
transferred a Government-owned external tank to another, with title retained in the Government
at all times. Such transfers happen regularly between NASA Centers and, as long as the
transfer is properly documented, there should be no questions about its propriety. On the other
hand as a separate transaction, a NASA concessioner from one Center provided
nonappropriated funds for an addition to a Visitor Center at another NASA Center. It is clear
that the Space Act authorizes the use of nonappropriated funds from concessioners to do
exactly that.

The complete text of management's comments is in Appendix C.

Evaluation of Management's Response. Management's comments are not responsive to
the recommendations. We do not agree with management's position and believe it is based on
an overly broad and liberal interpretation of not only the Space Act, but also of Kennedy's
concession agreement with Delaware North. The Space Act does allow NASA to use
nonappropriated funds of concessioners to fund construction, maintenance, and operation of all
manner of facilities and equipment for visitors. However, the Stennis Visitor Center is not
operated under a concession agreement. The nonappropriated funds were deposited in the
Stennis Exchange account. The Stennis Exchange is not a concessioner, but rather an
instrumentality of the Federal Government under NASA's control, and its primary mission is to
operate activities contributing to the efficiency, welfare, and morale of NASA personnel. We
also take exception to management's rationale that Kennedy's current concession agreement
allows Delaware North funds to be used at other NASA Centers for constructing facilities. The
$500,000 paid to the Stennis Exchange was derived from Delaware North's "Exhibits Fund"
which, as defined in the concession agreement, is to provide, as directed by the Contracting
Officer, for the replacement, renovation, upgrade, and general improvement of existing Kennedy
Visitor Complex exhibits, displays, and major audio-visual equipment. There is no mention in
the concession agreement that these funds can be used to construct facilities at any NASA
Center other than Kennedy.

Management has no foundation for its comment that separate transactions effected the transfer
of the tank and the providing of nonappropriated funds from a concessioner at one Center for
the construction of an addition at another Center. Although Centers routinely transfer property,
such transfers do not normally occur under the auspices of a formal written agreement signed by
not only the Center Directors, but also senior NASA officials on the Directors' respective staffs.
Further, the agreement clearly states that in return for transferring the external tank to Kennedy,
the Kennedy concessioner would pay the NASA Exchange at Stennis $500,000, payable in an
amount of $250,000 when the tank is




                                                 9
delivered to Kennedy and another $250,000 by April 30, 1998. The agreement as worded,
clearly indicates that the payment of $500,000 to the Stennis Exchange was dependent on
delivery of the external tank.

We are requesting that management reconsider its position and provide additional comments on
each of the recommendations. The recommendations are unresolved and will remain
undispositioned and open for reporting purposes. Our additional comments on management's
response are in Appendix D.




                                             10
              Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective of the audit was to evaluate the propriety and use of funds paid to the
NASA Exchange at Stennis in relation to the transfer of an external tank to the Kennedy Visitor
Complex. The specific objective was to determine whether the payments were appropriate and
reasonable and were used for authorized purposes.

Scope and Methodology

To accomplish our objectives, we:

•   Obtained an overall understanding of the February 27, 1997, bilateral agreement between
    the Kennedy and Stennis Center Directors regarding the transfer of the external tank.

•   Reviewed the payments made by Delaware North to the Stennis Exchange and the
    subsequent use of the funds.

•   Reviewed NASA’s policies and procedures for (1) equipment transfers between Centers,
    (2) activities of NASA Exchanges, and (3) management of the NASA Exhibits Program.

•   Reviewed the Kennedy Visitor Complex's Concession Agreement with Delaware North
    and the agreement's relationship to the external tank transfer in order to identify the
    responsibilities and requirements of the Kennedy Concessioner.

•   Reviewed the National Aeronautics and Space Act of 1958 to determine NASA’s authority
    to (1) use a concessioner to operate a NASA Visitor Complex, (2) establish a NASA
    Exchange, and (3) accept cash donations from outside sources.

•   Reviewed the General Accounting Office "Principles of Federal Appropriations Law" to
    identify policies and procedures related to the augmentation of appropriations.

•   Reviewed Stennis Exchange files and documents relative to the receipt and use of funds
    obtained from Delaware North.

•   Interviewed personnel at Kennedy, Stennis, and NASA Headquarters regarding the
    external tank transfer and associated payments, including the basis for the amount of funds
    received.




                                               11
Appendix A

•   Interviewed Delaware North personnel to obtain information regarding payments made to
    the Stennis Exchange and to understand processes used to carry out contractual
    responsibilities.

•   Reviewed the Stennis Exchange construction contract with D.N.P., Inc.

Management Controls Reviewed

We reviewed management controls relative to (1) transferring personal property or equipment,
(2) nonappropriated fund activities including NASA exchanges, and (3) uses of appropriated
and nonappropriated funds. As discussed in the finding, sufficient management controls are in
place governing the transfer of personal property or equipment and the proper use of
appropriated and nonappropriated funds. However, as described in the finding section of this
report, the two Centers did not follow these controls.

Audit Field Work

We conducted field work from October 1999 through March 2000 at NASA Headquarters,
Stennis, and Kennedy. We performed the audit in accordance with generally accepted
government auditing standards.




                                              12
Appendix B. Agreement Terms




            13
Appendix B




             14
     Appendix B




15
Appendix B




             16
Appendix C. Management's Response




               17
            Appendix C




See Appendix D,
OIG Comment 1




See Appendix D,
OIG Comment 2




                         18
     Appendix C




19
          Appendix C




See Appendix D,
OIG Comment 3




See Appendix D,
OIG Comment 4




                       20
     Appendix C




21
             Appendix C




See Appendix D,
OIG Comment 7




See Appendix D,
OIG Comment 5

See Appendix D,
OIG Comment 6




                          22
     Appendix C




              See Appendix D,
              OIG Comment 8




              See Appendix D,
              OIG Comment 9




23
             Appendix C




See Appendix D, OIG
Comment 10




See Appendix D,
OIG Comment 11

See Appendix D,
OIG Comment 12


See Appendix D,
OIG Comment 13




See Appendix D,
OIG Comment 14




See Appendix D,
OIG Comment 15




                          24
     Appendix C




             See Appendix D, OIG
             Comment 16




             See Appendix D,
             OIG Comment 17




             See Appendix D,
             OIG Comment 18




25
Appendix C




             26
     Appendix C




              See Appendix D,
              OIG Comment 7




27
Appendix C




             28
     Appendix C




29
Appendix C




             30
     Appendix C




31
Appendix C




             32
     Appendix C




33
Appendix C




             34
     Appendix C




35
Appendix C




             36
     Appendix C




37
         Appendix D. OIG Comments on Management's Response

NASA management provided the following comments in response to our draft report. Our
responses to the comments are also provided.

Management’s Comment. The OIG takes a narrow interpretation of the broad authority
given to NASA in the NASA Space Act. The foundation of the OIG’s position is that the
construction of an addition to the Stennis Visitor Center “is an activity requiring the use of funds
appropriated by Congress for this purpose.”

1. OIG Comments. Management’s statement regarding the foundation of our position is a
misrepresentation of the facts. We take exception to the funding arrangement and accounting
method the two Centers used to execute the transfer of funds to Stennis and to fund Visitor
Center improvements at Stennis, which resulted in an unauthorized augmentation of
appropriated funds.

The funding arrangement between Kennedy and Stennis is inappropriate for the following
reasons:

•   The Kennedy Visitor Complex Concessioner paid the Stennis Exchange in return for
    NASA property. The concession agreement with Delaware North states that the
    Government will make available excess property from Kennedy and other NASA Centers
    for the operation of the Public Visitor Program. Delaware North paid the Stennis Exchange
    from its exhibits fund, which shows the payment was for an exhibit as opposed to providing
    funds for the Stennis Visitor Center expansion. In fact, Kennedy procurement officials
    directed Delaware North to make payments to the Stennis Exchange for the external tank,
    and Delaware North reported the tank to NASA as contractor-acquired property as
    opposed to Government-furnished property. Funds for the construction of visitor facilities
    would be properly paid from another Delaware North account established for that purpose.
    Furthermore, transfers of property between NASA Centers are to be nonreimbursable.

•   Concessioner funds are by the concession agreement for the purpose of the Kennedy Public
    Visitor Program and are not for use at other NASA Centers. The Delaware North
    agreement makes it clear that funds generated from the Kennedy Public Visitor Program
    and the Kennedy Visitor Complex are for use at Kennedy.




                                                 38
                                                                                     Appendix D

The accounting of the funds at Stennis is inappropriate for the following reasons:

•   Even if reimbursement for the external tank were appropriate, disposition of funds collected
    from Delaware North for the external tank was improper. The concessioner funds were
    improperly paid to the Stennis Exchange for Stennis’ use, as opposed to being paid directly
    to Stennis for deposit into a U.S. Treasury or NASA account. Normally, funds received
    for the sale of property are to be deposited to the General Fund Proprietary Receipts
    account and are not available for use by NASA. However, if the funds collected will be
    used to replace an item (which was not the case with the external tank), then proper
    disposition would be to reimburse the procuring appropriation. In the case of a
    reimbursable transfer of property, funds collected would be a reimbursement to the
    appropriation that bore the cost of procuring the item transferred. In the external tank
    transaction, Stennis did not collect the funds into the General Fund Proprietary Receipts
    account nor did Stennis credit the proper appropriation. Regardless of the fact that the
    funds were nonappropriated concessioner revenues, it was improper to use the Stennis
    Exchange, also a nonappropriated activity, as a mechanism to account for and use the
    funds, at Stennis’ direction, for projects outside the scope of the Exchange’s authority. The
    Stennis Exchange is not a concessioner and, therefore, lacks the authority provided to
    concessioners by the Space Act. It is inappropriate for NASA to use the Exchange as a
    substitute for a concessioner in accomplishing the visitor program at Stennis. If Stennis
    lacked the authority and means to deposit the funds into NASA’s account and to exercise
    direct control over use of the funds, then it also lacked authority to indirectly account for
    and use the funds to accomplish its mission through the Stennis Exchange.

•   Interest on deposits into NASA’s account, had funds been properly accounted for, would
    not have accrued. Therefore, interest earned on the concessioner funds in the Exchange
    account would not be allowable for use by Stennis. If Stennis had the authority to use
    Kennedy concessioner funds for its Visitor Center expansion and exhibits, the proper
    accounting practice would be to deposit the funds directly into NASA’s account. Direct
    deposit to NASA would result in no accrued interest being earned; thus, Stennis’ use of
    interest accrued indirectly through use of the Exchange account would result in an
    augmentation as NASA cannot do indirectly what it is not authorized to do directly.

Management’s Comment. There is no question that the transfer and use of the concession
revenues should have been better documented.

2. OIG Comments. Management’s acknowledgement that the transfer of the external tank
and use of the concession revenues were inadequately documented does not address the Letter
Agreement between Kennedy and Stennis and other supporting evidence, which clearly show
management’s intent to enter into a reimbursable transaction. Stennis




                                                39
Appendix D

effected a reimbursable transfer of property by requiring receipt of funds in exchange for the
external tank. We are not questioning the lack of documentation for this transaction; we are
questioning the propriety of the transaction itself.

Management’s Comment. While the OIG draft report refers to the existence of this
“concessioner” language (Space Act, as amended) in several places in the report, the OIG fails
to fully appreciate its significance. Under this statutory authority, nonappropriated revenues
from a NASA concession agreement were properly used to construct an addition to the Visitor
Center at Stennis.

3. OIG Comments. Again, management does not recognize that our conclusions are not
based solely on the language in the Space Act that gives NASA authority to use concessioner
revenues to construct visitor facilities. As stated previously, we take no exception to the
position that NASA has specific statutory authority to use nonappropriated funds from
concessioners to construct and improve facilities for visitors. We do take exception to the
means by which Kennedy and Stennis accomplished the end result, which was to exchange the
external tank at Stennis for funds to expand and improve a visitor facility. Our position is as
follows:

•   Stennis violated established policy and procedure for transferring property. In accordance
    with NASA Handbook (NHB) 4200.1D and NHB 4300.1, property transfers between
    NASA Centers are to be on a nonreimbursable basis. Stennis transferred the external tank
    to the Kennedy Visitor Complex only after Kennedy agreed to have its concessioner pay
    $500,000 to the Stennis Exchange, as evidenced in the Letter Agreement between
    Kennedy and Stennis, and other documentation and interviews. The transmittal letter from
    the Stennis Legal Office to the Kennedy Legal Office states “you have advised that as soon
    as the tank is at Kennedy, the Kennedy concessionaire will make the first payment to the
    NASA Exchange – Stennis Branch.”

•   Kennedy misused its concessioner by directing it to pay for the external tank from
    concessioner-generated revenues. The concession agreement states that the Government
    will make available excess property from Kennedy and other NASA Centers for the
    operation of the Public Visitor Program. Also, the Kennedy concession agreement clearly
    states that revenues generated from the Kennedy Public Visitor Program and Visitor
    Complex are for use at Kennedy.

•   Stennis violated established accounting procedure for the disposition of funds collected for
    the sale of property or for a reimbursable transfer of property and in so doing, misused the
    Stennis Exchange as a mechanism to indirectly account for and use the funds for Stennis.
    As stated previously, the Stennis Exchange is not a concessioner and should not have been
    used as a substitute concessioner to indirectly accomplish what should have been done
    directly through the NASA accounts.


                                                40
                                                                                       Appendix D

•   The Letter Agreement misrepresented that the $500,000 is to “compensate Stennis for the
    potential loss of future revenue to the Stennis Visitor Program due to transfer of this major
    exhibit.” As shown in this report, Stennis never generated any revenue from its Visitor
    Program, and Stennis officials informed us that the anticipated loss of revenue was actually
    to the Stennis Exchange. Nevertheless, the fact that the Letter Agreement specifies that the
    funds were for potential losses of revenue and not for construction of facilities further shows
    that Kennedy and Stennis officials were not forthright in identifying how the funds were to
    be used.

If Stennis had authority to receive the funds for the external tank from the Kennedy
concessioner and to use the funds for improving its visitor facilities, we question why significant
efforts were made to complete this transaction indirectly through the Stennis Exchange.

Management’s Comment. Nonappropriated funds from Kennedy have been used, at least
once before, in 1984 to construct the first major modification to the Visitor Center at Stennis.

4. OIG Comments. We believe comparing the recent facility expansion and improvement to
the 1984 modification is irrelevant. Juxtaposition and comparison of events relative to the 1984
modification and the current expansion show the following key differences:

•   The previous concession agreement contained specific language not included in the current
    concession agreement with Delaware North that allowed concessioner funds to be used to
    support the visitor program at Kennedy and other NASA Centers.

•   Appropriate NASA Headquarters approval was obtained prior to the transfer of funds from
    the Kennedy concessioner in 1983, which was not the case for the transfer of funds from
    Delaware North. The Letter Agreement between Kennedy and Stennis did not receive
    Headquarters approval and neither did subsequent payments of funds. The Stennis Center
    Director at the time of the 1984 modification made it clear in his recollection of events that
    the 1983 fund transfer and 1984 modification to the Stennis Visitor Center was a concerted
    effort on the part of Kennedy, Stennis, and NASA Headquarters throughout the entire
    process.

•   There is no mention of using the Stennis Exchange as a means of collecting, accounting for,
    and using the funds at the direction of Stennis for the 1984 modification, as is the case with
    the funds received from Delaware North. The then Stennis Center Director further stated
    that the Assistant to the NASA Comptroller at that time objected to using nonappropriated
    Exchange funds from the Johnson Space Center.




                                                 41
Appendix D

•   Unlike the transfer of funds for the recent Stennis Visitor Center expansion and exhibits in
    which Kennedy received an external tank display in return, the 1983 transfer of funds from
    the Kennedy concessioner was unconditional. Kennedy received nothing in return for the
    funds paid to Stennis.

Management’s Comment. Under Kennedy's current concession agreement, Delaware North
can be directed to send concession revenues to other NASA Centers (as was the case under
prior concession agreements with other concessioners).

5. OIG Comments. The Delaware North concession agreement has no language that
authorizes payments to other NASA Centers for Visitor Center enhancements. Also,
management refers to an article from the previous concession agreement that specifically relates
to the “Service Improvement Account.” Management's use of the “Service Improvement
Account” article from the previous concession agreement is not germane because the
questionable payments to Stennis from Delaware North were paid from the Exhibits Fund and
were for the external tank.

Management’s Comment. In this case, nonappropriated concession revenues were sent to
Stennis at the direction of Kennedy management for the specific purpose of funding the
improvement of NASA facilities in concert with the legislative intent expressed in the Space Act.

6. OIG Comments. Contemporaneous events and justifications belie management’s
comment. Concessioner funds paid to Stennis were payment for the external tank and did not
constitute a simple transfer of funds for visitor program improvements.

Management’s Comment. Footnote 6 of management’s response states:

                Since the Visitor Center reopened in May of 2000, an Exchange
                concessioner operates the new restaurant, the Rocketeria, and another
                Exchange concessioner operates the new motion simulator ride at the
                Visitor Center. As the OIG report acknowledges, the Exchange has also
                operated a gift/souvenir shop since April of 1981. Stennis management
                believes it has the authority under section (c) (11) of the Space Act to
                use nonappropriated Exchange revenues generated by these
                concession operations to construct and improve facilities for visitors at
                Stennis, consistent with the policy stated in NASA Policy Directive
                (NPD) 9050.6E that Exchange funds are to be used to contribute to the
                efficiency, morale and welfare of NASA employees. It should not be
                difficult to justify such Exchange expenses to the extent that such
                construction and/or improvements enhance the income-generating
                capacity of Exchange operations at facilities for visitors that are
                constructed and/or improved.




                                                   42
                                                                                            Appendix D

7. OIG Comments. We take exception to management’s broad and unprecedented
interpretation of the Space Act in concluding that Exchange funds generated either from direct
Exchange operations or from Exchange concessioners can be used to construct or improve
visitor facilities. Section (c) (3) of the Space Act authorizes the Exchange “to provide…for
cafeterias and other necessary facilities for the welfare of employees of the Administration.”
The Space Act allows NASA to provide facilities primarily for the welfare of its employees, but
does not authorize the support of NASA programs with nonappropriated Exchange funds.
NPD 9050.6E lists functions the Exchanges may perform, including:

                Conduct other activities authorized by the Center Director with the prior
                concurrence of the Center Chief Counsel and the Center Public Affairs
                Officer, when activities involve the public and are clearly in NASA’s
                and its employees’ interests.


While this NPD language may appear to give the Exchange authority to provide for a facility
designed to serve the public, that would be too expansive an interpretation. The statutory
authority is to provide for the welfare of NASA employees. Furthermore, the NPD language
itself requires that activities involving the public must be “clearly in NASA’s and its employees’
interests.” Regarding the Visitor Center addition and improvements addressed in this report,
the Exchange provided the funding for a facility primarily for the benefit of the public, with only
an incidental benefit to NASA employees.

Management disregards other key elements of the Space Act in its conclusion that Exchange
concessioners fall within the authorities granted in section (c) (11). This section authorizes
NASA to provide by concession “…the construction, maintenance, and operation of all manner
of facilities and equipment for visitors to the several installations of the Administration and, in
connection therewith, to provide services incident to the dissemination of information concerning
its activities to such visitors.…” The primary purpose of the Stennis Exchange souvenir shop
and Exchange concessioners at the Visitor Center is to produce revenues for the Exchange and
is not to disseminate information concerning NASA activities to visitors. Therefore, revenues
generated to the Exchange by these activities are subject to legislative limitations of section (c)
(3) of the Space Act, which authorizes Exchange activities. It is also evident that the Space Act
authorizes NASA to directly enter into Visitor Center concession agreements and not indirectly
through the NASA Exchange.

Using the rationale that the Exchange can expend funds on facility construction and
improvements to enhance the income-generating capacity of Exchange operations, management
could inappropriately justify the use of Exchange funds for any project in which the Exchange
indirectly benefits.




                                                   43
Appendix D

Management’s Comment. Broad language in the new concession agreement still provides a
vehicle for transferring nonappropriated concession revenues from Kennedy to fund
improvements to facilities for visitors at other NASA installations.

8. OIG Comments. A reading of the entire concession agreement shows that the
concessioner’s undertakings are for the benefit of the Kennedy Public Visitor Program (PVP).
Article 1, section C, paragraph 1, identifies PVP as follows:

                The Government hereby bargains, sells and conveys to the
                Concessioner, under the terms and conditions stated in this Agreement,
                a preferential right, not an exclusive or monopolistic right, and grants
                necessary access, to conduct the revenue-producing activities
                described in this Agreement associated with the Kennedy Public Visitor
                Program (PVP) and Spaceport USA.” [Spaceport USA was later
                renamed Kennedy Space Center Visitor Complex.]


The above language specifically identifies PVP as being the Kennedy Public Visitor Program
and not the overall NASA public visitor program as described by management's comments.
Once the acronym PVP was established, it was used throughout the agreement to identify the
Kennedy Public Visitor Program. We maintain our position that the concession agreement does
not authorize payments for visitor program improvements at other NASA Centers.

Management’s Comment. The Stennis Center Director planned to transfer the external tank
regardless of any “potential loss of future revenue” and without any requirement for
compensation; it was clear to him that this was the right thing for NASA to do.

9. OIG Comments. To discern the intent of the parties, we give more credence to the
documentation created at the time the transaction took place than to a memorandum created in
July 2000, more than 3 years later. When establishing the Letter Agreement and executing its
terms, it is evident that other management officials involved in transferring the external tank to
Kennedy were not as clear as the Stennis Center Director who understood the right thing for
NASA to do was not require any compensation for the tank. The Stennis Center Director’s
July 2000 understanding that compensation should not have been made for the tank is correct
and is also the our position. Nevertheless, the Stennis Center Director signed the agreement
that specifically requires compensation once the external tank is delivered to Kennedy, and thus
effected an improper reimbursable transfer of property that ultimately resulted in an unauthorized
augmentation of funds.

Management’s Comment. There were really two separate transactions that need to be
examined. On the one hand, one NASA Center transferred a Government-owned external
tank to another, with title retained in the Government at all times. On the other hand, as a
separate transaction, a NASA concessioner from one Center provided nonappropriated



                                                  44
                                                                                            Appendix D

funds for an addition to a Visitor Center at another NASA Center. It is clear that the Space
Act authorizes the use of nonappropriated funds from concessioners to do exactly that.

10. OIG Comments. In actuality, consideration to Stennis in exchange for the external tank
was the issue, as it is so clearly stated in the Letter Agreement and other supporting evidence.
The Letter Agreement and evidence gathered during the audit clearly show the two transactions
are interrelated in that the external tank transfer and payment of concessioner funds were
dependent on each other. In reality, this is one transaction – transfer of the external tank for
cash. Therefore, our position remains that Kennedy and Stennis effected a reimbursable
transfer of property.

Management’s Comment. The attorneys who drafted the letter agreement were not privy to
the original conversation between the two NASA Center Directors.

11. OIG Comments. This assertion is irrelevant. The attorneys who drafted the Letter
Agreement must have known at least some of the details discussed by the NASA Center
Directors, otherwise those officials would not have known an agreement was needed. In a July
18, 2000, memorandum, Subject: “External Tank Transaction,” the Stennis Center Director
states “…I informed my Chief Counsel, . . ., about these discussions. I asked him to follow up
with Kennedy officials and work out the details.” Moreover, the Stennis Center Director's
February 27, 1997, letter to the Kennedy Center Director incorporating the Letter Agreement
states “This letter agreement captures the essence of conversations we, members of our staffs,
and Marshall Space Flight Center (MSFC) employees have had regarding the Space Shuttle
External Fuel Tank (external tank) that has been displayed at the Visitors Center at Stennis
Space Center.” (emphasis added)

Management’s Comment. The external tank actually left Stennis and began its journey to
Kennedy in late 1996, before the letter agreement was drafted.

12. OIG Comments. We specifically asked the Stennis Chief Counsel why the Letter
Agreement was dated after actual shipment of the external tank from Stennis in December
1996. The Stennis Chief Counsel responded in writing as follows:

                Prior to December 1996, detailed discussions and negotiations were
                ongoing as to how this transaction would be recorded. Based upon the
                fact that Kennedy faced an impending deadline for the opening of the
                new exhibit, it was determined that Stennis would allow the external tank
                to be shipped to Michoud Assembly Facility in December 1996 before
                the agreement was fully executed. The parties recognized that in
                addition to the time involved in actually moving the external tank to
                Kennedy, there was substantial work to be performed on the tank prior
                to its installation at the Kennedy display. Since negotiations on the
                terms of the agreement were essentially complete by December 9th and
                the agreement was in the review and concurrence cycle at the two



                                                   45
Appendix D

                NASA Centers, it was determined that it would be appropriate to release
                the external tank prior to the final execution of the written agreement.
                After actual shipment, no particular urgency required formal agreement
                signature, which occurred in February 1997.


As evidenced by the above statement, the fact that the tank left Stennis prior to a signed
agreement is no indication that Stennis would have transferred the tank without an agreement
specifying terms of compensation from the Kennedy concessioner. Indeed, according to the
Stennis Chief Counsel's written response, the terms had already been agreed to. Only the
formalities remained to be accomplished.

Management’s Comment. In retrospect, the justification for the transfer of the concession
revenues to Stennis should have simply (and more accurately) stated that Kennedy would direct
the transfer of the concession funds under the authority of section (c) (11) of the Space Act in
order for Stennis to modify and improve its Visitor Center.

13. OIG Comments. In retrospect, the Chief Counsels at either Kennedy or Stennis should
have rendered a legal opinion, considering all factors and parties involved, on the plans to
transfer and use concessioner funds paid to the Stennis Exchange prior to carrying out the
transaction. We maintain our position that concessioner funds were improperly paid to the
Stennis Exchange in return for the external tank display and that the Exchange acted outside its
designated authority in accounting for and using the funds at Stennis.

Management’s Comment. It is not reasonable for the OIG to attempt to characterize the
transfer of the external tank as a sale. First, there was no change of ownership of the external
tank. Second, Stennis transferred the external tank to Kennedy, not Delaware North, despite
the statement on page 2 of the audit report that “Stennis and Delaware North completed the
transfer of the external tank.…” Finally, Delaware North had neither the power nor authority to
“pay” Stennis for the external tank. Kennedy management, under the terms of its concession
agreement, directed Delaware North to send the concession funds to Stennis.

14. OIG Comments. We did not characterize the tank as a sale, but as evidenced in the
Letter Agreement, NASA officials made it clear from the transaction’s inception that funds in
the amount of $500,000 were to be transferred in exchange for the external tank. Our position
is that, although Kennedy and Stennis documented a nonreimbursable transfer of property, the
two Centers actually entered into an improper reimbursable agreement whereby Stennis
required consideration in the form of Kennedy concessioner revenues for the external tank.
While the property transfer arrangement worked out between the two Centers did not result in a
change in property ownership, it was not a nonreimbursable transfer.




                                                  46
                                                                                           Appendix D

Management is correct in its statement that Stennis transferred the external tank to Kennedy,
not Delaware North. The audit report clearly states on page 5 that Stennis transferred the tank
to Kennedy. Specifically:

                Stennis properly prepared the documentation required by NHB 4200.1D
                and NHB 4300.1 for initiating a nonreimbursable transfer of the external
                tank to Kennedy. However, Stennis actually effected a reimbursable
                transfer by requiring Kennedy to provide compensation of $500,000,
                which was NASA’s original cost of the tank.


We agree with management’s statement that Delaware North had neither the power nor
authority to “pay” Stennis for the external tank, but not for the same reasons management
provides. We also take the position that the concession agreement with Delaware North does
not contain language that authorizes concessioner revenues to be used at other NASA Centers
and, as a result, Kennedy management is not authorized to direct these payments to Stennis.

Management’s Comment. As evidence of its contention that the tank was sold, the OIG
audit report also cites letters from two Kennedy officials who either characterize the transfer as
a purchase by Delaware North or refer to “payment” for the external tank. The transfer should
have been better documented, and it may well have been mischaracterized by various NASA
officials, but the fact remains that when one NASA Center transfers a piece of Government-
owned property to another NASA Center, it is not a sale.

15. OIG Comments. Our position is that Kennedy officials did not mischaracterize the
transfer, but acted in accordance with the Letter Agreement in their direction to Delaware North
to make payments to the Stennis Exchange for the external tank. The Letter Agreement
expresses the intent to transfer the tank in exchange for the payment of $500,000 of
concessioner revenues to the Stennis Exchange. While we agree with management that the
transfer did not result in a sale of property, we continue to disagree that it represented a proper
nonreimbursable transfer as management portrays.

Management’s Comment. The concession revenues from Kennedy were not transformed
into something different by virtue of being deposited, for bookkeeping purposes, into an
interest-bearing account for nonappropriated funds in the name of the Stennis branch of the
NASA Exchange. It is contradictory for the OIG to assert that, for the purposes of modifying
the Stennis Visitor Center, the funds from the Exchange account were Exchange funds and not
concessioner funds, but for the purpose of devising a remedy for a perceived fiscal law
violation, the same funds must be returned to its concessioner source. Although, there is, at
times, some overlap between the authorized purposes to which nonappropriated Exchange
funds and nonappropriated concession funds can be used, in this case, the segregated funds
from each source (and the interest accruing thereto) were accounted for separately in order to
preserve their character and maintain a distinction in terms of the separate purpose and source
of each.


                                                  47
Appendix D

The Stennis branch of the NASA Exchange was merely used as a banking repository for the
funds from the Kennedy concessioner. The Exchange account was used as a matter of
administrative convenience to achieve the joint Kennedy/Stennis purpose of constructing an
addition to the Stennis Visitor Center. Stennis was not yet ready to contract for the new
addition at the time the nonappropriated funds from Delaware North arrived at Stennis. The
only account for nonappropriated funds that was available to hold the concession revenues from
Kennedy was that of the Stennis branch of the NASA Exchange.

16. OIG Comments. If Stennis lacked the authority and means to deposit the funds into
NASA’s account and to exercise direct control over use of the funds, then it also lacked
authority to indirectly account for and use the funds to accomplish its mission through the Stennis
Exchange. Regardless of the fact that funds were nonappropriated concessioner revenues, it
was improper to use the Stennis Exchange, also a nonappropriated activity, as a convenient
mechanism to account for and use the funds at Stennis’ direction for projects outside the scope
of the Exchange’s authority. The Stennis Exchange is not a concessioner.

Our assertion that funds from the Exchange account were Exchange funds and not concessioner
funds is derived from language in the Letter Agreement and from oral and written testimony of
the Chief Counsel and the Exchange Operations Manager at Stennis. The Letter Agreement
states “Kennedy will direct its concessioner…to make payment to the NASA Exchange –
Stennis Branch the sum of $500,000 to compensate Stennis for the potential loss of future
revenue to Stennis’ Visitor Program.…” In our entrance conference with Stennis officials, the
Stennis Chief Counsel and the Stennis Exchange Operations Manager who is also Special
Assistant to the Stennis Center Director, informed us that funds received from Delaware North
were for future potential loss of revenue to the Stennis Exchange Souvenir Shop located at the
Stennis Visitor Center. These officials stated that the external tank was its largest exhibit, and
because of its loss to Kennedy, the number of visitors would be significantly reduced and would
result in lower sales revenues at the souvenir shop. Finally, the Stennis Chief Counsel wrote “It
was noted that the transfer of any funds would serve as a means of compensating the Stennis
Space Center (and its Exchange) for the anticipated loss of Visitor Center traffic
and revenue.…” Because the Stennis Visitor Program received no revenues from visitors, it
would be logical that any revenue reimbursements would be to the Stennis Exchange and would
thus become subject to the usage authority provided the Exchange by the Space Act.

Management’s Comment. Stennis submitted a NASA Facility Project-Brief Project
Document (Form 1509) to Headquarters early in May 1998 as part of NASA’s internal
authorization process. The project was properly approved at Headquarters several weeks
before the construction contract was executed. The Form 1509 correctly identifies




                                                48
                                                                                        Appendix D

nonappropriated funds from the NASA Exchange as the funding source, but in retrospect, a
more insightful disclosure should have stated that “nonappropriated concession revenues from
Kennedy” were being used by Stennis.

17. OIG Comments. The OIG agrees with management that the Form 1509 was insufficiently
documented to provide detailed information necessary for approving officials to make a fully
informed decision regarding the Visitor Center addition. Again, we are not primarily concerned
about insufficient documentation. We question the propriety of the transaction itself.

Management’s Comment. According to the OIG position, in the absence of a concession
agreement at a particular installation, appropriated funds must be used to fund the construction
of NASA facilities for visitors at that installation. The basis for the OIG’s position is not clear in
the OIG audit report, it is contrary to previous NASA policy and practice, and it is not
grounded on any justifiable legal foundation.

18. OIG Comments. The basis for our position is clear in the report. Throughout the report,
we take no exception to NASA’s authority to use concessioner funds for visitor facilities, but
instead identify as inappropriate the mechanism used to accomplish the Visitor Center expansion
and improvements at Stennis. Our position was not conjecture. Rather, we reached our
conclusions after considering all the in-depth criteria and evidence regarding the transfer of the
external tank, payment of concessioner funds to the Stennis Exchange, and accounting and use
of concessioner funds paid the Exchange. Our conclusions and recommendations remain
unchanged.




                                                  49
                         Appendix E. Report Distribution


National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
J/Associate Administrator for Management Systems
JM/Acting Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
P/Associate Administrator for Public Affairs
Z/Associate Administrator for Policy and Plans

NASA Centers

Director, Ames Research Center
Director, Dryden Flight Research Center
Director, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Director, Jet Propulsion Laboratory
Director, Lyndon B. Johnson Space Center
Director, Langley Research Center
Director, George C. Marshall Space Flight Center
 Chief Counsel, Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office of
   Management and Budget
Associate Director, National Security and International Affairs Division, Defense Acquisition
   Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space




                                               50
                                                                                 Appendix E

Chairman and Ranking Minority Member - Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             51
                  NASA Assistant Inspector General for Auditing
                                 Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Transfer of External Tank Display to Kennedy Space Center Visitor
Complex

Report Number:                                         Report Date:

Circle the appropriate rating for the following statements.
                                                      Strongl                              Strongl
                                                         y      Agree   Neutra   Disagre   y         N/A
                                                       Agree              l         e      Disagre
                                                                                              e
1.   The report was clear, readable, and logically       5       4        3         2         1      N/A
     organized.
2.   The report was concise and to the point.            5       4        3         2         1      N/A
3.   We effectively communicated the audit               5       4        3         2         1      N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5       4        3         2         1      N/A
     support the finding(s) in a balanced and
     objective manner.


Overall, how would you rate the report?

      Excellent               Fair
      Very Good               Poor
      Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                     No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report
Kevin J. Carson, Program Director, Safety and Technology Audits

Oscar E. Lindley, Auditor-in-Charge

Robert A. Ameiss, Auditor

Elizabeth M. Richardson, Associate Attorney-Advisor

Iris Purcarey, Program Assistant

Nancy C. Cipolla, Report Process Manager
